                                                               PRESS RELEASE
FOR IMMEDIATE RELEASE                                                                                             For Information, Contact Public Affairs
Tuesday, September 23, 2008                                                                                            Channing Phillips (202) 514-6933



                                                       Amtrak Financial Specialist Pleads Guilty
                                                     to Embezzlement of $74,000 from Employer

Washington, D.C. – Douglas L. Thompson, a Financial Specialist who has worked for the National Railroad Passenger Corporation (“Amtrak”) since
1975, has pleaded guilty to embezzling more than $74,000 from Amtrak, U.S. Attorney Jeffrey A. Taylor announced today.

Thompson, 60, pleaded guilty earlier today to a one-count Information charging theft from a program receiving federal funds in U.S. District Court for
the District of Columbia before Magistrate Judge John M. Facciola. The case is set for a further status hearing on October 3, 2008, before Judge
James Robertson. At sentencing, the defendant faces a possible sentence of up to ten years’ incarceration, a fine of up to $2 50,000, and an
obligation to make restitution for the amounts embezzled from Amtrak. Under the voluntary Sentencing Guidelines, the defendant faces between 12
and 18 months of incarceration and a fine of between $3,000 and $30,000.

According to a Statement of Offense adopted as part of the plea proceedings, Thompson has been employed in Amtrak’s accounting department for
14 years. Beginning in 2006, Thompson was one of the employees primarily responsible for maintenance of the Manual Credit Car d System
(“MCCS”) – an accounting system that permits Amtrak personnel to give manual refunds to a customer’s credit card. The system is typically used to
give a customer’s credit card a refund in situations where traditional swipe-card readers are not available, such as when a customer is refunded for a
purchase made from Amtrak while aboard a train. Thompson manipulated the MCCS system so that he could award credits to his personal credit
cards without making a corresponding purchase from Amtrak. Thompson applied these false “refunds” to nine different credit cards, each of which
were in his own name. Over the course of two years, Thompson gave himself more than 244 bogus “refunds” with an aggregate value of $74, 029.04.

In announcing today’s guilty plea, U.S. Attorney Taylor praised the hard work of the investigative agents involved in this matter, especially Special
Agents James Harper, Kyle Sheluga, and Michael Mullen of the National Railroad Passenger Corporation Office of the Inspector General. He also
acknowledged the efforts of Assistant U.S. Attorney John W. Borchert who is prosecuting this matter.
